No. 20-1158

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JESSIE WILLIE GREEN,

)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
WILLIS CHAPMAN, Warden,
Respondent-Appellee.

Oct 22, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SILER, MOORE, and BUSH, Circuit Judges.

Jessie Willie Green, a pro se Michigan prisoner, petitions for rehearing of this Court’s June
29, 2020, order denying him a certificate of appealability to appeal the order of the district court
denying his 28 U.S.C. § 2254 petition for a writ of habeas corpus.
After consideration, we conclude that Green has failed to establish that rehearing is
necessary. Because the court did not misapprehend or overlook any point of law or fact, Green’s
petition is DENIED. See Fed. R. App. P. 40(a).

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

No. 20-1158

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JESSIE WILLIE GREEN,
Petitioner-Appellant,
v.

WILLIS CHAPMAN, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)

Jun 29, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: THAPAR, Circuit Judge.
Jessie Willie Green, a pro se Michigan prisoner, appeals the judgment of the district court
denying his 28 U.S.C. § 2254 petition for a writ of habeas corpus. This court construes Green’s
timely notice of appeal as an application for a certificate of appealability (“COA”).1 See Fed. R.
App. P. 22(b). He has also filed two motions to correct and/or amend the record.
In 2013, sixteen-year-old Symphony Whitney was assaulted while she was walking to
school. People v. Green, No. 321519, 2015 WL 5311660, at *1 (Mich. Ct. App. Sept. 10, 2015)
(per curiam). A green van at the scene of the incident was determined to belong to Green, and
Whitney identified Green as her attacker after she was shown two photographic lineups. Id. at *23. Green moved to suppress Whitney’s identification, asserting that the second lineup, from which
she identified him, was unduly suggestive. Id. at *3. The trial court denied the motion. Id. at *4.
Green was subsequently convicted of unlawful imprisonment, attempted assault by strangulation,
felonious assault, and possession of a firearm during the commission of a felony (felony-firearm).
Id. at *1. The trial court imposed a total term of imprisonment of seven to fifteen years, to be

l

Although Green filed in this court a cover letter indicating that the motion for a COA was
enclosed, no such motion was included with his mailing and no motion has been received by this
court.

No. 20-1158
-2-

served preceding and consecutively to a two-year term of imprisonment for the felony-firearm
conviction. Green appealed, asserting that the evidence was insufficient to support his convictions
for unlawful imprisonment and attempted assault by strangulation and that the trial court erred by
denying his motion to suppress the second photographic lineup. The Michigan Court of Appeals
found no error and affirmed. Id. at *8. The Michigan Supreme Court denied leave to appeal.
People v. Green, 877 N.W.2d 895 (Mich. 2016) (mem.).
Green then filed a motion for relief from judgment, raising allegations that the trial court
lacked jurisdiction, there was no probable cause for his arrest, the prosecutor committed
misconduct, Whitney’s identification of him was flawed, and trial and appellate counsel provided
ineffective assistance. The trial court found no merit to Green’s claims and summarily denied his
motion. The Michigan Court of Appeals and Michigan Supreme Court both denied leave to appeal.
In his original habeas petition, Green raised the following claims: the warrant to arrest him
was based on false information by the police and prosecutor, resulting in the trial court’s lack of
jurisdiction; and he was denied the effective assistance of trial and appellate counsel. In an
amended petition, he added a claim that the photographic identification procedure was unduly
suggestive. The warden filed a response to Green’s petition, and Green filed a reply.
After considering the parties’ pleadings, the district court determined that: Green had an
opportunity to litigate his illegal-arrest claim in state court, barring habeas review of the claim,
and, in any event, an illegal arrest would not have resulted in a jurisdictional defect; Green failed
to establish that the pre-trial photographic lineup was impermissibly suggestive; and Green’s
claims of the ineffective assistance of trial and appellate counsel either did not demonstrate
deficient performance or did not demonstrate that he was prejudiced by counsels’ action or
inaction. The district court therefore denied Green’s habeas petition and denied a COA. Green
appealed.
To obtain a COA, a petitioner must make “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). He may do so by demonstrating that “reasonable
jurists would find the district court’s assessment of the constitutional claims debatable or wrong.”

No. 20-1158
-3 Miller-El v. Cockrell, 537 U.S. 322, 338 (2003) (citing Slack v. McDaniel, 529 U.S. 473, 484
(2000)). “[A] COA does not require a showing that the appeal will succeed,” id. at 337; it is
sufficient for a petitioner to demonstrate that “the issues presented are adequate to deserve
encouragement to proceed further,” id. at 327 (citing Slack, 529 U.S. at 484).
In his first claim, Green asserts that the trial court lacked jurisdiction to prosecute him
because the police and prosecutor presented false information to obtain his arrest warrant. Green
asserts that the police and prosecutor intentionally misrepresented to the court the fact that Whitney
“positively” identified him when, in fact, her identification was tentative.
There were two police photographic lineups. The first lineup occurred on the day of the
assault, after Whitney met with a sketch artist. Green, 2015 WL 5311660, at *2. Because police
had linked the van at the scene to Green, Green’s picture was included in the lineup. Id. The photo
used was Green’s three-year-old driver’s license picture, and it was placed in the sixth position;
the rest of the lineup was populated with pictures from the Michigan Sex Offender Registry that
had similar backgrounds to Green’s driver’s license photo. Id. Whitney stated that the individual
in the fourth position looked familiar but she was not sure if he was her attacker. Id.
The same day, Green came to the station to talk to police about the location of his green
van, explaining that he mistakenly left the keys in it that morning. Id. at *3. An officer explained
that, when he interviewed Green, he realized that he looked older and different than in his driver’s
license photo and he took a picture of Green for inclusion in a second photographic lineup. Id. In
the second lineup, Green’s picture was placed in the fourth position and all the other photographs
were replaced with photographs of individuals who more closely reflected Green’s current
appearance. Id. Whitney was shown the second lineup the following day and stated that she
thought that the individual in the fourth picture was the one who attacked and attempted to kidnap
her. Id. Green asserts that Whitney’s statement that she thought he was her attacker was not a
positive identification, that his arrest therefore lacked probable cause, and that the trial court lacked
jurisdiction to prosecute him.

No. 20-1158
-4-

Federal habeas relief is precluded when a petitioner had a full and fair opportunity to
litigate a Fourth Amendment claim in state court proceedings. Stone v. Powell, 428 U.S. 465,494
(1976); Machacek v. Hofbauer, 213 F.3d 947, 952 (6th Cir. 2000). The ‘“opportunity for full and
fair consideration’ means an available avenue for the prisoner to present his claim to the state
courts, not an inquiry into the adequacy of the procedure actually used to resolve that particular
claim.” Good v. Berghuis, 729 F.3d 636, 639 (6th Cir. 2013).
Green cannot establish that he was denied an opportunity to challenge the legality of his
arrest. He raised the claim in his post-conviction motion for relief from judgment. The trial court
concluded that probable cause existed to arrest him, and the Michigan Court of Appeals and
Michigan Supreme Court denied him leave to appeal the denial of the post-conviction motion.
Because Green had an available avenue to present his Fourth Amendment claim to the Michigan
courts, he was afforded a full and fair opportunity to litigate his claim. Reasonable jurists would
therefore not debate the district court’s denial of this claim.
Green next argued that the photographic identification procedure was unduly suggestive
because he was the only suspect to be included in both lineups and, in the second lineup, his picture
was placed in the fourth position and Whitney had stated that the individual placed in the fourth
position in the first lineup, who was not Green, was familiar but that she was not sure he was her
attacker. Due process protects an accused against the introduction of evidence that results from
an unreliable identification obtained through unnecessarily suggestive procedures. See Moore v.
Illinois, 434 U.S. 220, 227 (1977). When reviewing a petitioner’s claim that an out-of-court
identification violated his due process rights, a court’s primary concern is with the reliability of
the evidence. See Manson v. Brathwaite, 432 U.S. 98, 114 (1977). The court first considers
whether the pre-trial identification was unnecessarily suggestive, and then whether, under the
totality of the circumstances, the identification was nonetheless reliable. Neil v. Biggers, 409 U.S.
188, 199-200 (1972); Mills v. Cason, 572 F.3d 246, 251 (6th Cir. 2009).
To be unduly suggestive, a pre-trial identification procedure must “steer[] the witness to
one suspect or another, independent of the witness’s honest recollection.” Wilson v. Mitchell, 250

No. 20-1158
-5F.3d388, 397 (6th Cir. 2001) (citing United States v. Russell, 532F.2d 1063,1068 (6th Cir. 1976)).
The Michigan Court of Appeals concluded that the second photographic lineup, from which
Whitney identified Green, was not unduly suggestive under plain-error review. See Green, 2015
WL 5311660, at *7-8. For instance, the court found that the fact that Green’s picture was the only
picture that appeared in both the first and second lineups did not render the second lineup unduly
suggestive where a different and recent photograph of Green was used in the second lineup. See
id. at *7; see also United States v. Watson, 540 F. App’x 512, 515-16 (6th Cir. 2013); Ragunauth
v. Ercole, No. 07CV1692(NG), 2008 WL 5401586, at *9 (E.D.N.Y. Dec. 23, 2008) (finding “the
witness viewing petitioner two times in a photo array did not taint the subsequent lineup”). The
court likewise did not find it unduly suggestive for Green’s picture to be randomly placed in the
same position in the second lineup as the individual that Whitney thought she recognized in the
first lineup because there was no indication that the positioning of Green’s photograph influenced
Whitney’s decision. See Green, 2015 WL 5311660, at *8; see also United States v. Carter, 410
F.3d 942, 949 (7th Cir. 2005), disapproved of on other grounds by United States v. Herman, 930
F.3d 872 (7th Cir. 2019); Wells v. Larose, No. 1:15 CV 298, 2017 WL 914694, at *18 (N.D. Ohio
Jan. 12, 2017). Reasonable jurists would not think that the Michigan Court of Appeals’ rejection
of this claim “was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement” (the ultimate
inquiry here given that the state court adjudicated this claim on the merits). Harrington v. Richter,
562 U.S. 86, 103 (2011); see also Stewart v. Trierweiler, 867 F.3d 633, 638 (6th Cir. 2017)
(explaining that state court’s plain-error ruling counts as an adjudication on the merits). Thus, this
claim does not deserve encouragement to proceed further.
Green’s last claim alleged that he was denied the effective assistance of trial and appellate
counsel. To prevail on a claim of ineffective assistance, a defendant must show both that his
counsel’s performance was deficient and that the deficient performance prejudiced his defense.
Strickland v. Washington, 466 U.S. 668, 687 (1984). For deficient performance, “the defendant
must show that counsel’s representation fell below an objective standard of reasonableness.” Id.

No. 20-1158
-6at 688. To establish prejudice, the defendant “must show that there is a reasonable probability
that, but for counsel’s unprofessional errors, the result of the proceeding would have been
different.” Id. at 694. As for the claims that a state court adjudicated on the merits, “the question
is not whether counsel’s actions were reasonable. The question is whether there is any reasonable
argument that counsel satisfied Strickland's deferential standard.” Harrington v. Richter, 562 U.S.
86, 105 (2011).
As the district court thoroughly explained, Green failed to establish trial counsel’s
ineffective assistance. Green’s claim that trial counsel was ineffective for failing to require the
arresting officer to testify at the pre-trial hearing did not establish deficient performance because
there is no right to compulsory process or to confront witnesses at a pre-trial evidentiary hearing.
See UnitedStates v. Smith, 191 F. App’x 383,388 (6th Cir. 2006) (discussing compulsory process);
see also Nelson v. O'Neil, 402 U.S. 622, 626 (1971) (“[T]he ‘confrontation’ guaranteed by the
Sixth and Fourteenth Amendments is confrontation at trial.”). Counsel cannot be ineffective for
failing to raise an issue that lacks merit. See Greer v. Mitchell, 264 F.3d 663, 676 (6th Cir. 2001).
Green’s claim that counsel was ineffective for failing to challenge the legality of his arrest
also does not deserve encouragement to proceed further. As discussed above, the Michigan courts
determined that Green’s arrest was supported by sufficient probable cause. Because the record
shows that probable cause supported Green’s arrest, a motion to challenge that arrest would have
been meritless. See id.
Green also claimed that counsel should have challenged his arrest and detention on grounds
that he was not properly advised of his rights under Miranda v. Arizona, 384 U.S. 436 (1966). No
statements made by Green were admitted at trial, however, and there was thus no basis for such a
challenge. Likewise, although Green believes that counsel should have moved to suppress the
photograph taken of Green while he was at the police station as fruit of an illegal arrest, this claim
is contradicted by the fact that Green was not under arrest at the time his picture was taken.
Next, Green argued that counsel should have called two witnesses to testify about who was
driving certain vehicles that were observed at Green’s residence on the morning of the offense.

No. 20-1158
-7However, Green has not provided affidavits from these witnesses as to what their testimony may
have been or how it would have benefitted him. Therefore, even if counsel should have sought
their testimony, Green cannot make a substantial showing that he suffered prejudice. See Clark v.
Waller, 490 F.3d 551, 557 (6th Cir. 2007).
Green also argued that counsel was ineffective for failing to object to the prosecutor’s
statement during closing argument that officers observed Green and his girlfriend drive away from
his residence on the morning of the incident, when the officer actually testified that he could not
identify who was driving. The prosecution is given leeway to argue reasonable inferences from
the evidence. See United States v. Collins, 78 F.3d 1021, 1040 (6th Cir. 1996). The prosecutor’s
remark here was reasonable because the officer testified that the person driving a car away from
Green’s residence on the morning of Whitney’s assault “appeared to be” Green. Moreover, Green
has not established how he was prejudiced by the prosecutor’s remark, given that he told police he
was driving around with his girlfriend the morning of Whitney’s assault.
Last, Green argued that trial counsel was ineffective for failing to object to the delayed
disclosure of a video that showed Whitney’s attempted abduction. Green argued that the video
contradicted Whitney’s version of the events and that the delay in disclosure prejudiced his ability
to obtain a video forensics expert to review the recording. Even if counsel should have challenged
this evidence, Green has not made a substantial showing of prejudice. See, e.g., United States v.
Spry, 238 F. App’x 142, 147 (6th Cir. 2007). Not only has he failed to provide any support that
there was any basis for an expert to have challenged the authenticity of the video, but also he had
an opportunity at trial to cross-examine Whitney about her version of events as compared to that
depicted on the video. Green’s claims of ineffective assistance of trial counsel do not deserve
encouragement to proceed further.
Finally, Green argues that appellate counsel was ineffective for failing to raise the claims
raised in his habeas petition and for failing to provide Green with pre-trial and trial transcripts so
he could submit a pro se brief on appeal. Appellate counsel has no obligation to raise every
possible claim, but the failure of counsel to raise a meritorious issue can amount to constitutionally

No. 20-1158
-8ineffective assistance. McFarland v. Yukins, 356 F.3d 688, 710 (6th Cir. 2004). To evaluate a
claim of ineffective assistance of appellate counsel, the court must assess the strength of the claim
that counsel failed to raise. Wilson v. Parker, 515 F.3d 682, 707 (6th Cir. 2008). Counsel’s failure
to raise an issue on appeal amounts to ineffective assistance only if a reasonable probability exists
that inclusion of the issue would have changed the result of the appeal. Id.
Neither of these claims deserve encouragement to proceed further. Green’s allegation that
appellate counsel should have raised the issues he set forth in his habeas petition does not
demonstrate deficient performance because, as explained here, those claims lacked merit and
would not have changed the result of the appeal. His claim that appellate counsel was ineffective
for failing to provide him with transcripts so he could have submitted a pro se brief on appeal also
does not amount to deficient performance. Green was represented on appeal by counsel who had
filed a brief, and criminal defendants do not have a constitutional right to “hybrid representation.”
United States v. Mosely, 810 F.2d 93, 97-98 (6th Cir. 1987).
For the foregoing reasons, Green’s application for a COA is DENIED. His pending
motions are also DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1759

Page 1 of 31

3

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JESSIE GREEN,

18-CV-13452-TGB

Petitioner

ORDER
(1)DENYING THE PETITION
FOR WRIT OF HABEAS
CORPUS;
(2) GRANTING THE MOTION
TO AMEND CAPTION (ECF
NO. 24);
(3) DENYING THE
REMAINING PENDING
MOTIONS (ECF NOS. 18, 20,
21, 23);
(4) DENYING A CERTIFICATE
OF APPEALABILITY, AND
(5) GRANTING LEAVE TO
APPEAL IN FORMA
PAUPERIS

vs.
WILLIS CHAPMAN1,
Respondent.

Jessie Green, (“Petitioner”), confined at the Thumb Correctional
Facility in Lapeer, Michigan, filed a petition for writ of habeas corpus
pursuant to 28 U.S.C. § 2254, challenging his convictions for unlawful
imprisonment, M.C.L.A. § 750.349b; attempted assault by strangulation,
M.C.L.A. §§ 750.84(l)(b); 750.92; felonious assault, M.C.L.A. § 750.82,

1 The Court grants petitioner’s motion to amend caption (ECF No. 24). The caption in this case be
amended to reflect that the proper respondent in this case is now Willis Chapman, the warden of the
prison where petitioner is currently incarcerated. See Edwards Johns, 450 F. Supp. 2d 755, 757 (E.D.
Mich. 2006); See also Rule 2(a), 28 foil. U.S.C. § 2254.

1

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1760

Page 2 of 31

and felony-firearm, M.C.L.A. § 750.227b. For the reasons that follow, the
petition for writ of habeas corpus is DENIED.
I. Background
Petitioner was convicted following a jury trial in the Wayne County
Circuit Court. This Court recites verbatim the relevant facts regarding
petitioner’s case from the Michigan Court of Appeals’ opinion affirming
his conviction, which are presumed correct on habeas review pursuant to
28 U.S.C. § 2254(e)(1). See Wagner v. Smith, 581 F. 3d 410, 413 (6th Cir.
2009):
This case arises from the assault of Symphony Whitney on
December 19, 2013, in Detroit, Michigan. Whitney, who was
16 years old at the time of the assault, was walking to school
between 8:00 a.m. and 8:30 a.m. As she walked along the
sidewalk, she approached a vacant house. A green van was
parked in the driveway of the house and partially on the
sidewalk, forcing Whitney to walk around the vehicle. The
van’s passenger side was closest to Whitney as she
approached the vehicle.
Whitney walked around the front of the van and immediately
saw defendant kneeling down by the driver’s side door. He
was dressed all in black and wore a ski mask, although he had
pulled the mask up so that it only covered his forehead.
Whitney only saw defendant’s face “[f|or a short moment”
before he pulled the mask down over his face, jumped to his
feet, and grabbed her. Whitney fell in the snow and began
screaming. Defendant pulled her up by the neck, then put her
in a chokehold with his right arm. Whitney continued to
2

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1761

Page 3 of 31

scream and struggle to escape. Defendant’s right arm was
across Whitney’s neck, but she was able to breathe and
scream for help. She was not, however, able to get away or
remove his arm. While Whitney testified that defendant did
not pull her toward the van, testimony from two other
witnesses admitted at defendant’s trial established that
defendant pulled her toward the vehicle.
With his right arm still around Whitney’s neck, defendant
pulled out a black gun with his left hand and pointed it at her
and menacingly told her to shut up. Whitney continued to
scream. A white work van passed the two as they struggled,
then the driver, Calvin White, stopped, backed the vehicle up,
and got out of the van. Earl Jackson, who was visiting at the
house across the street, heard the commotion, looked out the
window, and saw a man in black with a ski mask struggling
with Whitney. Jackson ran outside with his weapon drawn.

Whitney removed from her pocket the mace she usually
carried when she walked to school, eventually sprayed it at
defendant while they struggled, and managed to break free
and run toward Wright’s work van. Jackson saw defendant
run away. Neither Wright nor Jackson saw a gun in
defendant's possession.
Wright let Whitney sit inside his van while he tried to see
which way defendant had run. Whitney called her father, and
a woman who had emerged from another nearby house called
911. Jackson approached the green van and took the keys out
of the ignition. Detroit Police officers arrived a few minutes
later. When Whitney’s father arrived at the scene, she told
him that her neck hurt.
Detroit Police Officer Charles Howard was working an
undercover surveillance detail on a breaking-and-entering
task force that morning. He responded to the dispatch call
reporting an attempted abduction. Detroit Police officers who
3

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1762

Page 4 of 31

were already at the scene ran the green van’s license plate
through the Law Enforcement Information Network (LEIN),
which revealed defendant’s name and an address in Harper
Woods. Officer Howard drove to the Harper Woods address in
his unmarked police car, arriving there shortly after 9:00
a.m.. Officer Howard saw a black Ford and a blue Buick in the
driveway. The Ford was registered to Henrietta Barber at an
address on Farmbrook Street, and the Buick was registered
to defendant and Velvatine Jones at an address on
Nottingham Road in Detroit. The Farmbrook address was
approximately eight blocks away from the scene of the assault
on Whitney.

About 30 minutes after Officer Howard arrived at the Harper
Woods address, he saw a woman drive the Ford out of the
driveway. The Ford circled the block a couple of times. About
ten minutes later, he saw a man drive the Buick out of the
driveway. Both vehicles proceeded to the Farmbrook address
and Officer Howard also went to that location.

Officer Howard maintained surveillance at the Farmbrook
address for approximately 30 minutes before defendant came
out of the house with his girlfriend, Vernell Fleming.
Defendant and Fleming got into the Buick and drove away.
Defendant was driving. Officer Howard radioed for
assistance, and a waiting marked car stopped defendant.

Detroit Police Officer Jeremiah Orvelo was in the marked car
that stopped defendant. During the stop, Officer Orvelo’s
partner recovered a handgun from defendant’s side of the
Buick. Defendant carried a valid Carry Pistol License (CPL),
but the officers confiscated the weapon for safekeeping.
Officer Orvelo did not arrest defendant because Detroit Police
Sergeant Jose Ortiz told the officers to ask defendant to come
to the police station for questioning.
4

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1763

Page 5 of 31

Later that day, Detroit Police Officer Jeffery Manson
assembled a photographic lineup for Whitney to identify her
attacker. Officer Manson placed defendant’s driver's license
picture, which he had obtained from LEIN, in the sixth
position in the lineup. The picture on defendant’s driver’s
license was three years old at the time. Officer Manson took
the other five pictures from the Michigan Sex Offenders
Registry because the backgrounds of the pictures were similar
to the background of defendant’s driver’s license picture.
Whitney, meanwhile, came to the police station to meet with
a composite sketch artist. While there, she described her
attacker as being around 6 feet tall, skinny, brown-skinned
with a medium complexion, and about 30 years old. When the
sketch was complete, she asked the artist to add in a beard to
more accurately reflect her attacker’s appearance.

After Whitney’s meeting with the sketch artist, Sergeant
Ortiz showed her the photographic lineup. Whitney said that
the man in the fourth position looked familiar, but that she
was not sure he was the man who attacked her. Unbeknownst
to Whitney, the man in the fourth position had been
incarcerated at the time of the assault.

Later that same day, defendant arrived at the police station
for an interview. Sergeant Ortiz interviewed him and noted
that defendant looked different and younger in his driver’s
license picture than in person. Sergeant Ortiz took a picture
of defendant with his cell phone and sent the picture to Officer
Manson for inclusion in a second photographic lineup. During
the interview, defendant stated that he had inadvertently left
the keys in the green van that morning, and that he had last
seen the van in the driveway of the Harper Woods address.
Defendant maintained that Fleming had been with him all
5

Case 2:18-CV-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1764

Page 6 of 31

morning and that they had driven together in the Buick to the
Nottingham address, then to the Farmbrook address.
On December 20, 2013, Officer Manson went to Whitney’s
house with the second photographic lineup. He had replaced
the other five photographs with photographs of individuals
who more closely reflected defendant’s different appearance
in the new picture that Sergeant Ortiz had taken. He believed
that it would have been unduly suggestive to have used the
same pictures from the first lineup given that they did not
look like the new picture of defendant. Defendant’s new
picture was now in the fourth position. Whitney only looked
at the photographs for “a matter of seconds” and, when asked,
indicated that she recognized number four. Whitney wrote, “I
think he’s the one who attacked me,” and, “He tried to kidnap
me,” on the photographic lineup.
Later that day, Officer Manson called defendant to tell him
that he could pick up his green van at the police station.
Officer Manson arrested defendant when he arrived. Detroit
Police officers never recovered defendant’s gun, however,
because defendant had reclaimed it the previous day and
because it was not on his person when Officer Manson
arrested him.

People v. Green, No. 321519, 2015 WL 5311660, at * 1-3 (Mich. Ct.
App. Sept. 10, 2015) (internal footnote omitted).
Petitioner’s conviction was affirmed on direct appeal. Id., Iv. den.
499 Mich. 915, 877 N.W. 2d 895 (2016).
Petitioner filed a post-conviction motion for relief from judgment,
which was denied. People v. Green, No. 14-000470-01-FH (Third Cir. Ct
6

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1765

Page 7 of 31

Nov. 28, 2016). The Michigan appellate courts denied petitioner leave to
appeal. People v. Green, No. 337063 (Mich. Ct. App. July 13, 2017); Iv.
den. 501 Mich. 1080, 911 N.W.2d 713 (2018), reconsideration den., 503
Mich. 862, 917 N.W.2d 369 (2018).
Petitioner in his original and amended habeas petitions seeks
habeas relief on the following grounds: (1) Petitioner is entitled to
immediate release where there was police and prosecutor misconduct
resulting in extrinsic fraud on the court to confer jurisdiction, (2) the
photographic identification procedure was unduly suggestive,2 (3)
petitioner was denied the effective assistance of trial counsel, and (4)
petitioner was denied the effective assistance of appellate counsel.
II. LEGAL STANDARD
28 U.S.C. § 2254(d) provides that:
An application for a writ of habeas corpus on behalf of a
person in custody pursuant to the judgment of a State court
shall not be granted with respect to any claim that was
adjudicated on the merits in State court proceedings unless
the adjudication of the claim—
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly

2 Petitioner excluded this claim from his initial habeas petition but later asked to include this claim
in his motion to amend or correct the record. (ECF No. 11). This Court subsequently granted
petitioner’s motion to amend his petition to include this claim. (ECF No. 19, PagelD. 1720).

7

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1766

Page 8 of 31

established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence presented in the State court
proceeding.
A decision of a state court is “contrary to” clearly established federal
law if the state court arrives at a conclusion opposite to that reached by
the Supreme Court on a question of law or if the state court decides a
case differently than the Supreme Court has on a set of materially
indistinguishable facts. Williams v. Taylor, 529 U.S. 362, 405—06 (2000).
An “unreasonable application” occurs when “a state court decision
unreasonably applies the law of [the Supreme Court] to the facts of a
prisoner’s case.” Id. at 409. A federal habeas court may not “issue the
writ simply because that court concludes in its independent judgment
that the relevant state-court decision applied clearly established federal
law erroneously or incorrectly.” Id. at 410-11. “[A] state court’s
determination that a claim lacks merit precludes federal habeas relief
so long as ‘fairminded jurists could disagree’ on the correctness of the
state court’s decision.” Harrington v. Richter, 562 U.S. 86, 101 (2011)
(citing Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). Therefore, in
order to obtain habeas relief in federal court, a state prisoner is required
8

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1767

Page 9 of 31

to show that the state court’s rejection of his or her claim “was so lacking
in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded
disagreement.” Id. at 103.
III. Discussion
A. Claim # 1. The illegal arrest/jurisdiction claim
Petitioner first alleges that the trial court lacked jurisdiction over
his case because the police and prosecutor committed fraud on the state
court by knowingly presenting false information to a judge to obtain his
arrest warrant. Petitioner refers to a statement in a police report that
was submitted to the prosecutor’s office as part of a request to bring
charges. See ECF No.l, Page ID. 109. In the report, the writer states that
the victim positively identified petitioner as the man who assaulted her.
Petitioner claims that statement is false because the victim’s second
identification was merely “tentative.”
Petitioner challenged the legality of his arrest in his post-conviction
motion for relief from judgment. The judge denied the motion, finding
that there was probable cause to arrest petitioner. People v. Green, No.

9

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1768

Page 10 of 31

14-000470-01-FH, *2 (Third Cir. Ct, Nov. 28, 2016) (ECF No. 8-14,
PagelD. 1266).
A federal habeas review of a petitioner’s arrest or search by state
police is barred where the state has provided a full and fair opportunity
to litigate an illegal arrest or a search and seizure claim. Stone v. Powell,
428 U.S. 465, 494—95 (1976); Machacek v. Hofbauer, 213 F.3d 947, 952
(6th Cir. 2000). For such an opportunity to have existed, the state must
have provided, in the abstract, a mechanism by which the petitioner
could raise the claim, and presentation of the claim must not have been
frustrated by a failure of that mechanism. Riley v. Gray, 674 F.2d 522,
526 (6th Cir. 1982). The relevant inquiry is whether a habeas petitioner
had an opportunity to litigate his or her claims, not whether he or she in
fact did so or even whether the Fourth Amendment claim was correctly
decided. See Wynne v. Renico, 279 F. Supp. 2d 866, 892 (E.D. Mich. 2003);
rev’d on other grds 606 F.3d 867 (6th Cir. 2010). Indeed, under Stone, the
correctness of a state court’s conclusions regarding a Fourth Amendment
claim “is simply irrelevant.” See Brown v. Berghuis, 638 F. Supp, 2d 795,
812 (E.D. Mich. 2009). “The courts that have considered the matter ‘have
consistently held that an erroneous determination of a habeas
10

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1769

Page 11 of 31

petitioner’s Fourth Amendment claim does not overcome the Stone v.
Powell bar.’” Id. (quoting Gilmore v. Marks, 799 F.2d 51, 57 (3rd Cir.
1986)).
Petitioner presented his Fourth Amendment claim in his post­
conviction motion for relief from judgment before the trial court and the
Michigan appellate courts. Because petitioner was able to raise his illegal
arrest claim in his post-conviction motion, petitioner had a full and fair
opportunity to raise this Fourth Amendment claim in the state courts
and is thus not entitled to habeas relief. See Hurick v. Woods, 672 F.
App’x 520, 535 (6th Cir. 2016).
Moreover, petitioner failed to show that the police or prosecutor
used false information to obtain his arrest warrant. Probable cause for
an arrest does not require a perfect identification, and witness
identifications are “entitled to a presumption of reliability and veracity.”
Legenzoff v. Steckel, 564 F. App’x 136, 143 (6th Cir. 2014) (internal
quotation omitted) (witness’s statement that he was 80% positive that
Legenzoff was the person who robbed him sufficient to justify arrest); see
also Stahl v. Czernik, 496 F. App’x 621, 624 (6th Cir. 2012) (probable
cause-existed to support arrest warrant even if the-affidavit-for the
11

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1770

Page 12 of 31

warrant omitted that one of the eyewitnesses had qualified his
identification by stating that he would be more certain of his
identification if he could see the suspect’s tattoo). The victim’s statement
at the second photo show-up that “I think he’s the one who attacked me”
was sufficient to establish probable cause to issue the arrest warrant.
Finally, petitioner’s jurisdictional claim is meritless. “An illegal
arrest, without more, has never been viewed as a bar to subsequent
prosecution, nor as a defense to a valid conviction.” United States v.
Crews, 445 U.S. 463, 474 (1980) (citing Gerstein v. Pugh, 420 U.S. 103,
119 (1975)); see also Frisbie v. Collins, 342 U.S. 519 (1952); Ker v. Illinois,
119 U.S. 436 (1886). The Supreme Court has held that “[T]he ‘body’ or
identity of a defendant or respondent in a criminal or civil proceeding is
never itself suppressible as a fruit of an unlawful arrest, even if it is
conceded that an unlawful arrest, search, or interrogation occurred.”IAS
v. Lopez-Mendoza, 468 U.S.

1032,

1039 (1984).

Although the

exclusionary rule prohibits the introduction at trial of evidence that was
seized in violation of the constitution, a criminal defendant “is not himself
a suppressible ‘fruit,’ and the illegality of his detention cannot deprive
the Government of the opportunity to prove his guilt through the
12

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1771

Page 13 of 31

introduction of evidence wholly untainted by the police misconduct.”
United States v. Crews, 445 U.S. at 474. Petitioner does not identify any
evidence other than his own body that was seized during this allegedly
unlawful arrest.

Thus, the mere fact that petitioner may have been

arrested on an invalid warrant would not prevent him from being
prosecuted and convicted of this offense. Petitioner is not entitled to
relief on his first claim.
B. Claim # 2. The suggestive identification claim
Petitioner contends that that the second photographic lineup was
impermissibly suggestive because he was the only suspect included in
both lineups and because petitioner’s newer photograph was placed in
the fourth position during the second lineup, the same position in the
first lineup, in which Ms. Whitney had earlier misidentified a suspect.
Due process protects the accused against the introduction of
evidence which results from an unreliable identification obtained
through unnecessarily suggestive procedures. Moore v. Illinois, 434 U.S.
220, 227 (1977).

To determine whether an identification procedure

violates due process, courts look first to whether the procedure was
impermissibly suggestive; if so, courts then determine whether, under
13

Case 2:18-CV-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1772

Page 14 of 31

the totality of circumstances, the suggestiveness has led to a substantial
likelihood of an irreparable misidentification. Kado v. Adams, 971 F.
Supp. 1143, 1147-48 (E.D. Mich. 1997) (citing to Neil v. Biggers, 409 U.S.
188 (1972)).

Five factors should be considered in determining the

reliability of identification evidence:
1. the witness’s opportunity to view the criminal at the
time of the crime;
2. the witness’s degree of attention at the time of the crime;
3. the accuracy of the witness’s prior description of the
defendant;
4. the witness’s level of certainty when identifying the
suspect at the confrontation; and,
5. the length of time that has elapsed between the time and
the confrontation.
Neil v. Biggers, 409 U.S. at 199-200.
If a defendant fails to show that the identification procedures are
impermissibly suggestive, or if the totality of the circumstances indicate
that the identification is otherwise reliable, no due process violation has
occurred; so long as there is not a substantial misidentification, it is for
the jury or factfinder to determine the ultimate weight to be given to the
identification. See United States v. Hill, 967 F.2d 226, 230 (6th Cir. 1992).
Petitioner failed to show that Ms. Whitney’s in-court identification
was the product of a suggestive pre-trial identification. -Indeed, “the
14

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1773

Page 15 of 31

Supreme Court has never held that an in-court identification requires an
independent basis for admission in the absence of an antecedent
improper pre-trial identification.” Cameron v. Birkett, 348 F. Supp. 2d
825, 843 (E.D. Mich. 2004). Moreover, “the Due Process Clause does not
require a preliminary judicial inquiry into the reliability of an eyewitness
identification when

the

identification

was

not procured

under

unnecessarily suggestive circumstances arranged by law enforcement.”
Perry v. New Hampshire, 565 U.S. 228, 248 (2012).
The mere fact that Ms. Whitney was exposed to successive
identification procedures of petitioner did not render her identifications
of him unreliable. See Williams v. Lavigne, 209 F. App’x 506, 508 (6th
Cir. 2006) (Identification procedure, during which witness was shown
several lineups and photo arrays, all of which contained defendant’s
picture, was not unduly suggestive). The fact that petitioner was the only
person to appear in both photographic line-ups did not make the second
photographic line-up suggestive in light of the fact that different
photographs of petitioner were used in each hne-up. See United States v.
Watson, 540 F. App’x 512, 516-17 (6th Cir. 2013). Finally, “the fact that
the two photo arrays placed the intended suspect in the same numerical
15

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1774 Page 16 of 31

position is not unduly suggestive.” Wells v. Larose, No. 1:15 CV 298, 2017
WL 914694, at *18 (N.D. Ohio Jan. 12, 2017), report and recommendation
adopted, No. 1:15 CV 298, 2017 WL 898007 (N.D. Ohio Mar. 7, 2017).
Petitioner is not entitled to habeas relief on his second claim.
C. Claims # 3 and # 4. The ineffective assistance of counsel
claims.
Petitioner contends he was denied the effective assistance of trial
and appellate counsel.
To prevail on his ineffective assistance of counsel claims, petitioner
must show that the state court’s conclusion regarding these claims was
contrary to, or an unreasonable application of, Strickland v. Washington,
466 U.S. 668 (1984). See Knowles v. Mirzayance, 556 U.S. Ill, 123 (2009).
Strickland established a two-prong test for claims of ineffective
assistance of counsel: the petitioner must show (1) that counsel’s
performance was deficient, and (2) that the deficient performance
prejudiced the defense. Strickland, 466 U.S. at 687.
Petitioner first appears to argue that his counsel should have
objected to the violation of his right to confront witnesses and to
compulsory process when the trial court failed to require the arresting
officer to testify at a pre-trial evidentiary hearing.
16

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1775

Page 17 of 31

The Sixth Circuit has observed the lack of any legal authority
“holding that the Sixth Amendment right to compulsory process applies
to pretrial detention hearings.” See United States v. Smith, 191 F. App’x
383, 388 (6th Cir. 2006). The Supreme Court has likewise referred to a
defendant’s Confrontation Clause right to confront witnesses as being a
“trial right.” See Pennsylvania v. Ritchie, 480 U.S. 39, 52 (1987) (“The
opinions of this Court show that the right to confrontation is a trial right,
designed to prevent improper restrictions on the types of questions that
defense counsel may ask during cross-examination.”) (emphasis original);
See also Barber v. Page, 390 U.S. 719, 725 (1968) (“The right to
confrontation is basically a trial right.”). Other courts have also so noted.
See Wallace v. Rivard, No. 14-14535, 2016 WL 3055617, at * 5 (E.D. Mich.
May 31, 2016) (observing that “[c]ourts in other circuits have consistently
held that the Confrontation Clause does not apply to pre-trial hearings”).
Because there is no right to compulsory process or confrontation at a pre­
trial evidentiary hearing, any objection on this ground would have been
meritless. Defense counsel was not required to raise meritless objections.
Harris v. United States, 204 F.3d 681, 683 (6th Cir. 2000).

17

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1776

Page 18 of 31

Petitioner also appears to argue that trial counsel was ineffective
for failing to challenge the legality of his arrest.
As mentioned when addressing petitioner’s first claim, supra,
petitioner does not identify any evidence other than his own body that
was seized during this allegedly unlawful arrest. Thus, the mere fact
that petitioner may have been arrested on a defective arrest warrant
would not prevent him from being prosecuted and convicted of this
offense. Failing to file a frivolous motion to dismiss does not constitute
ineffective assistance of counsel. See Goldsby v. U.S., 152 F. App’x 431
438 (6th Cir. 2005). A challenge to the legahty of petitioner’s arrest would
not have resulted in his release from custody. Counsel was not ineffective
for failing to file a motion to dismiss on this basis. See Friday v. Pitcher,
200 F. Supp. 2d 725, 738-39 (E.D. Mich. 2002).
Petitioner also claims that trial counsel was ineffective for failing
to contest his arrest and detention on Miranda grounds.
A prosecutor may not use a defendant’s statements which stem
from custodial interrogation unless the prosecutor can demonstrate the
use of procedural safeguards which are effective to secure a defendant’s
privilege against self-incrimination. Miranda v. Arizona, 384 U.S. 436,
18

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

444 (1966).

PagelD.1777

Page 19 of 31

No statements by petitioner were admitted at trial. People

v. Green, No. 14-000470-FH, * 2 (ECF No. 8-14, PagelD. 1266). There
was nothing to suppress.

Because no statement was ever admitted

against petitioner, trial counsel was not ineffective for failing to challenge
petitioner’s detention on the ground that he was not given his Miranda
warnings. See United States v. Self, 100 F. Supp. 3d 773, 778 (D. Ariz.
2015).
In a related vein, petitioner claims that trial counsel was ineffective
for failing to move to suppress the photograph of petitioner taken by
Sergeant Ortiz at the police station which was later used during the
second photographic line-up, in which Ms. Whitney identified petitioner
as her assailant. Petitioner claims that this photograph should have
been suppressed as a fruit of an illegal arrest because he was effectively
arrested when he showed up at the police station.
The evidence at trial establishes that petitioner voluntarily showed
up at the police station. He was not arrested at that point or placed in
handcuffs or otherwise detained. Petitioner was not told he was a suspect
or that he was not free to leave; in fact, petitioner was allowed to leave
after the photograph was taken. Under these circumstances, petitioner
19

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1778

Page 20 of 31

was not under arrest when he was at the police station. See, e.g., Young
v. Renico, 346 F. App’x 53, 58 (6th Cir. 2009). Because there was no basis
for asserting that petitioner was illegally detained by the police when he
agreed to show up at the police station, petitioner was not denied the
effective assistance of counsel by his counsel’s failure to challenge the
admissibility of his photograph taken by Sergeant Ortiz on this basis,
where counsel may have reasonably determined that a motion based
upon an illegal arrest claim would have been meritless. See Reedus v.
Stegall, 197 F. Supp. 2d 767, 782 (E.D. Mich. 2001).
Petitioner next contends that trial counsel was ineffective for
failing to call Henrietta Barber (the owner of the black Ford) and
Velvetann Jones (the owner of the blue Buick) “concerning who was
driving those vehicles on the morning of the offense.”
Petitioner has offered, neither to the Michigan courts nor to this
Court, any evidence beyond his own assertions as to whether the
witnesses would have been able to testify and what the content of these
witnesses’ testimony would have been. In the absence of such proof, the
petitioner is unable to establish that he was prejudiced by counsel’s
failure to call these witnesses to testify at trial, so as to support the
20

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1779

Page 21 of 31

second prong of an ineffective assistance of counsel claim. See Clark v.
Waller, 490 F. 3d 551, 557 (6th Cir. 2007).
Petitioner next claims that his counsel was ineffective for failing to
object to what petitioner argues was a misleading statement made by the
prosecutor during closing argument that officers observed petitioner and
his girlfriend driving away from his residence in the black Ford and blue
Buick. Green claims that the officer conducting the surveillance, Officer
Howard, testified that he could not identify who was driving either
vehicle. But Officer Howard later testified that the person later identified
as petitioner “appeared to be” the same person as the male he observed
leave his residence and drive away in a blue Buick. ECF No. 8-8, PagelD.
756-57. Later, on cross, he confirmed (through the use of a double
negative) that he was not testifying that the man he saw enter the blue
Buick was not petitioner. Id., PagelD. 760.
Misrepresenting facts in evidence by a prosecutor can amount to
substantial error because doing so “may profoundly impress a jury and
may have a significant impact on the jury’s deliberations.” Washington v.
Hofbauer, 228 F.3d 689, 700 (6th Cir. 2000) (quoting Donnelly v.
DeChristoforo, 416 U.S. 637, 646 (1974)). Likewise, it is improper for a
21

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1780

Page 22 of 31

prosecutor during closing arguments to bring to the jury any purported
facts which have not been introduced into evidence and which are
prejudicial. Byrd v. Collins, 209 F. 3d 486, 535 (6th Cir. 2000). However,
prosecutors must be given leeway to argue reasonable inferences from
the evidence. Id.
The prosecutor’s remarks in closing arguments were based on
reasonable inferences from the evidence. Because the prosecutor’s
remarks were not improper, counsel was not ineffective for failing to
object. Slagle v. Bagley , 457 F. 3d 501, 528 (6th Cir. 2006).
Petitioner finally argues that trial counsel was ineffective for failing
to object to the delayed disclosure of the videotape which showed the
actual attempted abduction. Petitioner argues that the prosecutor
violated the dictates of Brady v. Maryland, 373 U.S. 83, 87 (1963) by
failing to turn over this evidence sooner to the defense.
Under Brady, the prosecution must disclose evidence “in its
possession that is both favorable to the accused and material to guilt or
punishment.” Pennsylvania v. Ritchie, 480 U.S. 39, 57 (1987). To
establish a Brady violation, a defendant must show: “[1] the prosecutor
suppressed evidence^ [2] that such evidence was favorable to the defense;
22

Case 2:18-CV-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1781

Page 23 of 31

and [3] that the suppressed evidence was material.” Carter v. Bell, 218
F.3d 581, 601 (6th Cir. 2000). Evidence is material only if there is “a
reasonable probability that, had the evidence been disclosed to the
defense,

the

result

of

the

proceeding

would

have

been

different.” Ritchie, 480 U.S. at 57. Where the prosecution ultimately
hands over the Brady material that could be used to impeach a witness,
however, there is no violation “so long as the defendant is given [the]
impeachment material, even exculpatory impeachment material, in time
for use at trial.” United States v. Presser, 844 F.2d 1275, 1283 (6th Cir.
1988); see also United States v. Davis, 306 F.3d 398, 421 (6th Cir.
2002) (“Thus, Brady generally does not apply to delayed disclosure of
exculpatory information, but only to a complete failure to disclose.”)
(quotation omitted).
Only where the defendant has been prejudiced by the delay in
disclosure is Brady violated. Davis, 306 F.3d at 421. To establish
prejudice, “a defendant must show what he would have done differently
had he been given more time to address the Brady evidence, and
specifically how, had the evidence been given to the defendant earlier, a
reasonable probability exists that the result of the defendant's trial would
23

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1782

Page 24 of 31

have been different.” United States v. Spry, 238 Fed App’x 142, 148 (6th
Cir. 2007) (citations omitted). The ultimate touchstone of this inquiry is
critically, “whether in [the] absence [of the evidence] [the defendant]
received a fair trial, understood as a trial resulting in a verdict worthy of
confidence.” Kyles v. Whitley, 514 U.S. 419, 434 (1995). A “reasonable
probability” of a different result is thus demonstrated when the
government's evidentiary suppression “undermines confidence in the
outcome of the trial.” Id. (quoting United States v. Bagley, 473 U.S. 667,
680 (1985) (opinion of Blackmun, J.)).
Petitioner claims that the video evidence was not disclosed until the
day of trial. Petitioner contends that his attorney should have objected to
this delayed disclosure because it prevented him from making a pretrial
motion seeking the appointment of an independent video forensic expert
to analyze the tapes. ECF 1, PagelD 33. The trial court addressed this
issue in denying Defendant’s Motion for Relief from Judgment and found
that “the trial record does not support that there was any improper delay
or that any such delay was outcome determinative.” Id at PagelD 103.
In his Petition, Petitioner capably describes how he believes the
video—without the aid of any expert analysis—could be used to support
24

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1783

Page 25 of 31

his defense (“Petitioner submits that what the recording shows is
contrary to complainant’s testimony”, Id at PageID.35).

Petitioner

clearly had the ability during trial to have his counsel explain to the jury
what he believed to be the exculpatory value of the video, but did not do
so. Moreover, Petitioner has offered no evidence to this Court that there
exists an expert who would have challenged the accuracy or reliability of
the videotape.

A habeas petitioner’s claim that trial counsel was

ineffective for failing to call an expert witness cannot be based on
speculation. See Keith v. Mitchell, 455 F. 3d 662, 672 (6th Cir. 2006).
Under these circumstances, Petitioner has failed to show both that he
was prejudiced by the allegedly delayed disclosure of the video and, given
that he was identified in-court by the victim, a reasonable probability
that the result of his trial would have been different had he had access to
the video earlier.

Because Petitioner cannot substantiate a Brady

violation, he has not shown that trial counsel was ineffective for failing
to object or to move for a mistrial based upon a Brady violation. See, e.g.,
McMeans v. Brigano, 228 F. 3d 674, 684-85 (6th Cir. 2000).
Petitioner in his fourth claim alleges that appellate counsel was
ineffective for failing to raise a number of his claims that he now raises.
25

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1784

Page 26 of 31

The Sixth Amendment guarantees a defendant the right to effective
assistance of counsel on the first appeal by right. Evitts v. Lucey, 469 U.S.
387, 396-397 (1985). However, court appointed counsel does not have a
constitutional duty to raise every non-frivolous issue requested by a
defendant. Jones v. Barnes, 463 U.S. 745, 751 (1983). A habeas court
must defer twice: first to appellate counsel’s decision not to raise an issue
and secondly, to the state court’s determination that appellate counsel
was not ineffective. Woods v. Etherton, 136 S. Ct. 1149, 1153 (2016) (per
curiam) (“Given AEDPA, both Etherton’s appellate counsel and the state
habeas court were to be afforded the benefit of the doubt.”).
Petitioner’s claims are meritless. “[A]ppellate counsel cannot be
found to be ineffective for ‘failure to raise an issue that lacks merit.’”
Shaneberger v. Jones, 615 F. 3d 448, 452 (6th Cir. 2010) (quoting Greer
v. Mitchell, 264 F.3d 663, 676 (6th Cir. 2001)).
Petitioner also claims that appellate counsel was ineffective for
failing to provide petitioner with the pre-trial and trial transcripts,
presumably so that petitioner could file his own pro per appellate brief.
Petitioner fails to state a claim upon which relief can be granted. A
criminal defendant has no federal^ constitutional right_ to self- _
26

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1785

Page 27 of 31

representation on direct appeal from a criminal conviction. Martinez v.
Court of Appeal of California, 528 U.S. 152, 163 (2000). This is because
the rights protected by the Sixth Amendment, including the right to self­
representation, are rights that are available to prepare for trial and at
the trial itself. However, the Sixth Amendment does not include any
right to appeal. Id. at 160. The Supreme Court also rejected the idea that
the right to self-representation on appeal could be grounded in the Due
Process Clause [of the Fourteenth Amendment], because “[UJnder the
practices that prevail in the Nation today, however, we are entirely
unpersuaded that the risk of either disloyalty or suspicion of disloyalty is
a sufficient concern to conclude that a constitutional right of self­
representation is a necessary component of a fair appellate proceeding”.
Martinez, 528 U.S. at 161.
Thus, there is no constitutional entitlement to submit a pro se
appellate brief on direct appeal from a criminal conviction in addition to
a brief submitted by appellate counsel. See McMeans v. Brigano, 228 F.
3d at 684. By accepting the assistance of counsel, the criminal appellant
waives his right to present pro se briefs on direct appeal. Myers v.
Johnson, 76 F.3d 1330, 1335 (5th Cir. 1996); see also Henderson v.
27

Case 2:18-CV-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1786

Page 28 of 31

Collins, 101 F. Supp. 2d 866, 881 (S.D. Ohio 1999); affd in part, vacated
in part on other grounds 262 F.3d 615 (6th Cir. 2001).
Because petitioner was represented by appellate counsel, any
failure by the trial court or appellate counsel to provide petitioner with
the trial transcripts so that he could prepare his own pro se brief would
not violate petitioner’s constitutional rights. See U.S. v. Dierling, 131
F.3d 722, 734, n.7 (8th Cir. 1997); Foss v. Racette, No. l:12-CV-0059, MAT
2012 WL 5949463, * 4 (W.D.N.Y. Nov. 28, 2012); see also Willis v. Lafler,
No. 05-74885, 2007 WL 3121542, * 18 (E.D. Mich. Oct. 24, 2007).
Petitioner is not entitled to relief on his fourth claim.
D. The Court denies petitioner’s remaining motions.
Petitioner has filed a number of motions which remain pending
before the Court.
Petitioner filed a motion for an evidentiary hearing. ECF No. 18.
A habeas petitioner is not entitled to an evidentiary hearing on his
claims if they lack merit. See Stanford v. Parker, 266 F. 3d 442, 459-60
(6th Cir. 2001). In light of the fact that petitioner’s claims are meritless,
he is not entitled to an evidentiary hearing. The motion is denied.

28

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1787

Page 29 of 31

Petitioner has filed a motion for the production of documents. ECF
No. 20. This Court has already determined that petitioner’s allegations
even if true, would not entitle him to habeas relief. In light of the fact
that petitioner’s claims are without merit, petitioner is not entitled to
seek discovery in support of his claims. See Sellers v. United States, 316
F. Supp. 2d 516, 523 (E.D. Mich. 2004). The motion is denied.
Petitioner has filed two motions in which he seeks summary
judgment.

Given this Court’s determination that petitioner is not

entitled to federal habeas relief, the motions for summary judgment are
denied as moot. See Ortiz v. Williams, 489 F. Supp. 2d 381, 386 (D. Del.
2007).
IV. Conclusion
The Court denies the petition for writ of habeas corpus. The Court
will also deny a certificate of appealability to petitioner. In order to
obtain a certificate of appealability, a prisoner must make a substantial
showing of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To
demonstrate this denial, the applicant is required to show that
reasonable jurists could debate whether, or agree that, the petition
should have been resolved in a different manner, or that the issues
29

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1788

Page 30 of 31

presented were adequate to deserve encouragement to proceed further.
Slack v. McDaniel, 529 U.S. 473, 483—84 (2000). When a district court
rejects a habeas petitioner’s constitutional claims on the merits, the
petitioner must demonstrate that reasonable jurists would find the
district court’s assessment of the constitutional claims to be debatable
or wrong. Id. at 484. “The district court must issue or deny a certificate
of appealability when it enters a final order adverse to the applicant.”
Rules Governing § 2254 Cases, Rule 11(a), 28 U.S.C. foil. § 2254.
For the reasons stated in this opinion, the Court will deny
petitioner a certificate of appealability because he has failed to make a
substantial showing of the denial of a federal constitutional right. See
also Millender v. Adams, 187 F. Supp. 2d 852, 880 (E.D. Mich. 2002).
However, although jurists of reason would not debate this Court’s
resolution of petitioner’s claims, the issues are not frivolous; therefore,
an appeal could be taken in good faith and petitioner may proceed in
forma pauperis on appeal. See Foster v. Ludwick, 208 F. Supp. 2d 750,
765 (E.D. Mich. 2002).
V. ORDER
Based upon the foregoing, IT IS ORDERED that:
30

Case 2:18-cv-13452-TGB-EAS ECF No. 27 filed 01/31/20

PagelD.1789

Page 31 of 31

(1)

The petition for a writ of habeas corpus is DENIED WITH
PREJUDICE.

(2)

The motion to amend caption (ECF No. 24) is GRANTED.
Petitioner’s remaining motions (ECF No. 18, 20, 21, 23) are
DENIED.

(3)

A certificate of appealability is DENIED.

(4)

Leave to appeal in forma pauperis is GRANTED.

Dated: January 31, 2020

s/Terrence G. Berg
HON. TERRENCE G. BERG
UNITED STATES DISTRICT JUDGE

31

Case 2:18-cv-13452-TGB-EAS ECF No. 28 filed 01/31/20 PagelD.1790 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JESSIE GREEN,
Petitioner

18-CV-13452-TGB
JUDGMENT

vs.
WILLIS CHAPMAN,
Respondent.

JUDGMENT
The above entitled matter having come before the Court on
a Petition for Writ of Habeas Corpus, Honorable Terrence G.
Berg, a United States District Judge, presiding, and in
accordance with the Memorandum Opinion and Order entered
on January 31, 2020:
(1) The Petition for Writ of Habeas Corpus is DENIED
WITH PREJUDICE.
(2) A Certificate of Appealability is DENIED.
(3) Petitioner is GRANTED leave to appeal in forma
pauperis.
DAVID J. WEAVER
CLERK OF THE COURT
APPROVED:
BY: /s/A. Chubb
DEPUTY CLERK
/s/Terrence G. Berg
HON. TERRENCE G. BERG
UNITED STATES DISTRICT JUDGE

Case 2:18-CV-13452-TGB-EAS ECF No. 36 filed 07/15/20

PagelD.1833

Page 1 of 3

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JESSIE GREEN,

2:18-CV-13452-TGB

Petitioner
vs.

ORDER DENYING PENDING
MOTIONS

WILLIS CHAPMAN,
Respondent.

On January 31, 2020, the Court denied Petitioner’s Petition for
Writ of Habeas Corpus with prejudice, denied a certificate of
appealability, and granted Petitioner leave to appeal in forma pauperis.
ECF.No. 27.

On February 19, 2020, Petitioner filed a motion for a

certificate of appealability (ECF No. 30).

On February 26, 2020,

Petitioner filed a motion for reconsideration of the denial of a certificate
of appealability (ECF No. 33). On March 17, 2020, Petitioner filed a
motion seeking copies of all evidence he submitted to this Court for use
in his appeal. ECF No. 34. On June 29, 2020, the Sixth Circuit Court of
Appeals issued an order denying Petitioner a certificate of appealability.
ECF No. 35.
E.D. Mich. Local Rule 7.1(h)(3) allows a party to file a motion for
reconsideration. However, a motion for reconsideration which presents
the same issues already ruled upon by the court, either expressly or by
reasonable implication, will not be granted. Ford Motor Co. v.
1

Case 2:18-cv-13452-TGB-EAS ECF No. 36 filed 07/15/20

PagelD.1834

Page 2 of 3

Greatdomains.com, Inc., 177 F. Supp. 2d 628, 632 (E.D. Mich. 2001). A
motion for reconsideration should be granted if the movant demonstrates
a palpable defect by which the court and the parties have been misled
and shows that correcting the defect will lead to a different disposition of
the case. See DirecTV, Inc. v. Karpinsky, 274 F. Supp. 2d 918, 921 (E.D.
Mich. 2003).
In this case, Petitioner has made a number of lengthy arguments
in support of his motion for reconsideration. ECF No. 33. All of these
arguments were considered by this Court, however, either expressly, or
by reasonable implication, when the Court denied petitioner habeas relief
on his claims and declined to issue a certificate of appealability. ECF No.
27. None of the arguments raised in the motion persuade the Court that
it palpably erred when it denied Petitioner’s petition for writ of habeas
corpus and certificate of appealability, nor has Petitioner shown that
even if such a defect existed, it would have resulted in a different
disposition of the case. Accordingly, Petitioner has not established an
entitlement to relief under Local Rule 7.1(h).
With respect to Petitioner’s motion for copies, on June 29, 2020, the
Sixth Circuit Court of Appeals reviewed the merits of Petitioner’s claims
and denied Petitioner a certificate of appealability. ECF No. 35. Because
the Sixth Circuit has declined to issue a certificate of appealability,
Petitioner’s motion for copies for use in his appeal (ECF No. 34) will be
denied as moot.
2

Case 2:18-cv-13452-TGB-EAS ECF No. 36 filed 07/15/20

PagelD.1835

Page 3 of 3

For the reasons above, it is HEREBY ORDERED that Petitioner’s
motion for certificate of appealability (ECF No. 30) and motion for
reconsideration of the denial of a certificate of appealability (ECF No. 33)
are DENIED. IT IS FURTHER ORDERED that Petitioner’s motion
for copies (ECF No. 34) is DENIED AS MOOT.
Dated: July 15, 2020

s/Terrence G. Berg_________________
TERRENCE G. BERG
UNITED STATES DISTRICT JUDGE

3

